MISSOURI BOTANICAL GARDEN
      St. Louis, Missouri



  Financial and Compliance Audit
                 of
           Indirect Costs
       For the Years Ended
   December 31, 1999 and 2000




                          M.D. Oppenheim & Company, P.C.
                                Certified Public Accountants
                            485 U.S. Highway 1, Building C
                             Iselin, New Jersey 08830-4100
                           MISSOURI BOTANICAL GARDEN

                                     Table of Contents

                                                                                  Page

Acronyms                                                                             1

Section I - Introduction and Audit Results:
 Background                                                                          3
 Objective and Scope of Audit                                                        3
 Summary of Audit Results                                                            4
 Exit Conference                                                                     7

Section II - Findings and Recommendations:
 Independent Auditors' Report on Compliance and Internal Control                     9
 Findings and Recommendations on Internal Control                                   11
 Finding and Recommendation on Compliance                                           15

Section III - Financial Schedules:
 Independent Auditors' Report                                                       17
 Financial Schedules:
   Schedule A - Schedule of Over/(Under) Recovered On-Site Indirect Costs on
                  National Science Foundation Awards                                19
   Schedule A-1 - Schedule of Over/(Under) Recovered Off-Site Indirect Costs on
                    National Science Foundation Awards                             21
  Schedule B-1 and B-2 - Schedule of Indirect Cost Calculation                     23
  Schedule B-1 - Indirect Cost Calculation                                         23
  Schedule C, C-1 and C-2 - Schedule of Auditors' Adjustments and Eliminations     39
 Notes to Financial Schedules                                                      44

Section IV - Supplementary Information:
 Independent Auditors' Report on Supplementary Information                         46
 Schedule D-1 to D-14 - Detailed Schedule of (Over)/(Under) Recovered Indirect
                          Costs by NSF Awards                                      47
 Schedule E - Listing of NSF Awards Active During Audit Period Not Affected by
               Indirect Cost Audit                                                 75

Section V - Awardee's Response                                                     76
	



                        MISSOURI BOTANICAL GARDEN

                                      Acronyms


    Acronym   Explanation of Acronym

    AICPA     American Institute of Certified Public Accountants

    DACS      Division of Acquisition and Cost Support

     DGA      Division of Grants and Agreements

     FCTR     Federal Cash Transactions Report

     MBG      Missouri Botanical Garden

    MTDC      Modified Total Direct Costs

     NSF      U.S. National Science Foundation

     OIG      Office of Inspector General

     OMB      Office of Management and Budget




                                                                   1
          SECTION I

INTRODUCTION AND AUDIT RESULTS




                                 2
                               SECTION I -
                     INTRODUCTION AND AUDIT RESULTS

                                      BACKGROUND

        The Missouri Botanical Garden (MBG), created by prominent St. Louis businessman
Henry Shaw, is a not-for-profit charitable trust with a mission to discover and share
knowledge about plants and their environment in order to preserve and enrich life. MBG's
three primary functions are research, education, and horticultural display. Opened to the
public in 1859, MBG has administrative offices on the grounds of the Garden in St. Louis,
and off-site scientific locations in other parts of the United States, as well as in South and
Central America, Africa, and Asia.

       MBG generates approximately $27 million of annual revenues mainly from
contributions, bequests, donations, endowments, memberships, City of St. Louis tax revenue
and grants and contracts. Of the approximate $27 million of annual revenues, Federal
financial assistance approximates $1.1 million. The National Science Foundation (NSF)
provides the most significant portion of the Federal financial assistance to MBG,
approximately 60 percent on an annual basis, and is its cognizant Federal audit agency.

                          OBJECTIVE AND SCOPE OF AUDIT

        At the request of the NSF Office of the Inspector General (OIG), M. D. Oppenheim &
Company, P.C. conducted a financial and compliance audit of the indirect cost proposals
prepared by MBG for the years ended December 31, 1999 and 2000 to determine final
indirect cost rates for those years. During the period of our audit there were 14 NSF awards
that included indirect costs based on a predetermined rate specified in the award letter and/or
award budget. Our audit objectives were: (1) to determine whether MBG complied with
Federal requirements in computing its indirect costs proposals; (2) to determine whether
MBG over or under-recovered indirect costs on each NSF award active during the audit
period, based upon the audit determined indirect cost rates; and (3) to evaluate the adequacy
of MBG's internal controls to administer, account for, and monitor indirect cost charges to
Federal awards.

       To accomplish the objectives of the audit, we:

       •   Conducted an on-site audit survey with sufficient observations, interviews, and
           examinations of documents to make an initial determination whether
           predetermined rates were based on allowable indirect costs and whether controls
           to administer, account for, and monitor indirect costs are adequate to ensure
           compliance with Federal cost principles and administrative requirements.

       •   Prepared an audit planning document, for OIG review and approval. The planning
           document included a description of MBG's organizational structure and the
           process used to administer, account for, and monitor indirect cost charges to
           Federally sponsored awards. As part of the planning process we performed an
           assessment of audit risk and obtained an understanding of MBG's control
           environment.


                                                                                             3
       •   Prepared an internal control audit planning document for OIG review and
           approval. The internal control planning document included the proposed audit
           programs/procedures for testing the significant internal controls necessary to
           accurately administer, account for, and charge indirect cost charges to Federally
           sponsored awards. As part of the internal control review, we evaluated MBG's
           control environment, conducted a risk assessment, and analyzed information and
           communication and monitoring and control activities.

       •   Prepared a substantive audit testing planning document for OIG review and
           approval. The substantive planning document stated the preliminary results of the
           internal control phase of the audit, including any findings and recommendations
           and the proposed audit program, which included the tests on compliance with
           applicable laws and regulations and substantive testing procedures to be applied to
           the indirect cost pools and the direct cost base.

       •   Performed testing procedures to determine whether the indirect cost proposals and
           the resultant indirect cost rates comply with OMB Circulars A-110, Uniform
           Administrative Requirements for Grants and Agreements with Institutions of
           Higher Education, Hospitals and Other Nonprofit Organizations, and A- 122, Cost
           Principles for Non-Profit Organizations.

       We conducted our audit in accordance with AICPA auditing standards generally
accepted in the United States of America, the Comptroller General's, Government Auditing
Standards and included tests of the accounting records and other auditing procedures that we
considered necessary to fully address the audit objectives.

                             SUMMARY OF AUDIT RESULTS

        We identified significant deficiencies in MBG's calculation of its indirect cost rates
for the two-year period ended December 31, 2000. The total audit adjustments and
eliminations for those two years necessary to correct for the inaccuracies in the rate
calculation amount to $4,104,396 in total reductions to the indirect cost pools (or 52 percent
of total cost pools), and $77,176 total additions to the direct cost bases (or 1 percent of total
direct cost bases). As a result of these adjustments, the audited indirect cost rates were
substantially less than the rates proposed by MBG. NSF can use these audited indirect cost
rates to assist in negotiating future predetermined rates for MBG. A comparison of these
predetermined and proposed rates to the audited rates are as follows:




                                                                                               4
       We believe that MBG's proposed rates were significantly higher than its audited rates
and that it claimed more indirect costs than it incurred because of the following internal
control weaknesses and compliance deficiencies in its procedures and processes to
administer, account for, and monitor its indirect costs.

Material Internal Control Weaknesses

•   MBG does not maintain a general ledger system that segregates direct and indirect costs.
    It determines the actual breakdown of costs into direct and indirect cost categories only
    when it prepares its indirect cost proposal. At that time, staff prepare extensive
    worksheets delineating for each type of expense, the amounts that belong either in the
    indirect cost pool or in the direct cost base. MBG's general ledger does not separate
    direct and indirect costs because staff thought the use of spreadsheets was sufficient.
    However, the use of special worksheets to determine indirect and direct costs is
    inefficient and resulted in errors in its rate calculated.

•   MBG does not have adequate control procedures for the preparation of indirect cost
    proposals. Specifically, it does not have written policies and procedures explaining the
    process to prepare and submit indirect cost proposals, because staff overlooked this
    requirement for effective internal controls. As a result, MBG improperly included $4
    million of curatorial costs in the indirect cost pools, and incorrectly classified $423,540
    of costs in the direct cost bases. These errors caused MBG to propose indirect cost rates
    as much as 52 percent higher than it actually incurred and to charge NSF $19,024 more
    of indirect costs than it incurred, or 6.7 percent of total claimed indirect costs on the 14
    NSF awards active during the audit period.

•   Contrary to Federal cost principles, MBG does not maintain time and attendance records
    adequate to track, document, and certify the labor effort of staff who allocate time to
    different awards or to both direct and indirect activities. Nor does MBG maintain a
    written allocation plan to substantiate its payroll allocations between awards/projects or
    between direct and indirect costs. MBG does not maintain more detailed documentation
    of these labor costs because although management has to allocate time spent on specific
    awards and on direct and indirect costs for nearly 200 employees, it decided it was
    familiar enough with the employees' daily workloads to determine their levels of effort.



                                                                                              5
Non-Compliance

   •   Contrary to Federal requirements, prior to FY 2000, MBG did not submit its indirect
       cost proposals to NSF annually, as required, but instead submitted them biennially.
       MBG stated that NSF orally approved its biennial submission practice, although NSF
       does not recall doing so.

        To address the internal control weaknesses and compliance deficiencies, we
recommend that the Directors of NSF's Division of Acquisition and Cost Support (DACS)
and the Division of Grants and Agreements (DGA) require that MBG (1) modify its current
general ledger system to segregate direct and indirect costs; (2) develop written policies and
procedures documenting its process for calculating indirect cost rates; (3) keep its staff up-to-
date on Federal and NSF requirements for the preparation of indirect cost proposals; (4)
maintain time and effort records to document the actual time staff work on projects and
awards; and for all staff who work on both direct and indirect cost activities, to document
actual time spent on each category; and (5) submit annual indirect cost proposals.

Summary of Auditee's Responses

       MBG generally agreed with the findings, except for the exclusion of $4.1 million of
curatorial costs from the indirect cost pool. It stated that because curatorial costs are not
project-specific and are incurred to maintain collections that are used for all research, they
should be classified as indirect costs. Further, it stated that two similar institutions it
contacted also classify curatorial costs as indirect costs.

Summary of Auditors' Responses to Auditee's Responses

        MBG's comments regarding the classification of $4.1 million of curatorial costs does
not address the issue that curatorial costs are mission-related, which was central to the
finding. We also reserve comment on MBG's reference to similar institutions since we have
not audited these institutions. However, as noted in the transmittal letter to NSF
management for this report, NSF-OIG has contacted four other botanical gardens that
classify their curatorial costs as direct costs.

       With respect to the Auditee's responses pertaining to the Schedule of Auditors'
Adjustments and Eliminations (Schedule C), we do not agree with the exclusion of the $4.1
million adjustment for curatorial costs as discussed above. MBG provided some additional
support for the missing documentation for FY1999. This resulted in an immaterial increase
in both the on-site and off-site indirect cost rates of .04%, respectively. We have not
adjusted any of the financial schedules in the report as a result of the immaterial change.
MBG agreed with the remaining auditors' adjustments and eliminations.




                                                                                               6
                                      Exit Conference

        An exit conference was held on June 7, 2002 at the Auditee's office located at 2345
Tower Grove, St. Louis, Missouri. The findings on compliance and internal control along
with the adjustments and eliminations related to the indirect cost proposals were discussed by
the following individuals.

For Missouri Botanical Garden:




For M.D. Oppenheim & Company, P.C.:




                                                                                            7
         SECTION II

FINDINGS AND RECOMMENDATIONS




                               s
National Science Foundation
Office of Inspector General
4201 Wilson Boulevard
Arlington, Virginia 22230

              INDEPENDENT AUDITORS' REPORT ON COMPLIANCE
                        AND INTERNAL CONTROL

We have audited the summary schedule of over/(under) recovered indirect costs
(Schedule A) and the schedules of indirect/direct costs (B-1 to B-2) which summarize the
indirect cost proposals prepared by the Missouri Botanical Garden for the years ended
December 31, 1999 and 2000, and have issued our report thereon dated June 7, 2002. We
conducted our audit in accordance with auditing standards generally accepted in the United
States of America, the standards applicable to financial audits contained in Government
Auditing Standards issued by the Comptroller General of the United States and the National
Science Foundation Audit Guide (September 1996).

Compliance

As part of obtaining reasonable assurance about whether the Missouri Botanical Garden's
financial schedules are free of material misstatement, we performed tests of its compliance
with certain provisions of laws, regulations, and policies, noncompliance with which could
have a direct and material effect on the determination of the financial schedules amounts.
However, providing an opinion on compliance with those provisions was not an objective of
our audit and, accordingly, we do not express such an opinion. The results of our tests
disclosed the instance of noncompliance, as reported in the accompanying Finding and
Recommendation on Compliance and the adjustments and eliminations noted in
Schedules C-1 and C-2, that are required to be reported under Government Auditing
Standards and the National Science Foundation Audit Guide.

Internal Control Over Financial Reporting

In planning and performing our audit, we considered the Missouri Botanical Garden's
internal control over financial reporting in order to determine our auditing procedures for the
purposes of expressing our opinion on the financial schedules and not to provide assurance
on the internal control over financial reporting. However, we noted certain matters involving
internal control over financial reporting and its operation that we consider to be reportable
conditions. Reportable conditions involve matters coming to our attention relating




                                                                                              9
National Science Foundation
Office of Inspector General
Arlington, Virginia


Internal Control Over Financial Reporting (Cont.)

to significant deficiencies in the design or operation of the internal control over financial
reporting that, in our judgment, could adversely affect the Missouri Botanical Garden's
ability to record, process, summarize and report financial data consistent with the assertions
of management in the financial schedules. The reportable conditions noted are described in
the accompanying Findings and Recommendations on Internal Control.

A material weakness is a condition in which the design or operation of one or more of the
internal control components does not reduce to a relatively low level the risk that
misstatements in amounts that would be material in relation to the financial schedules being
audited may occur and not be detected within a timely period by employees in the normal
course of performing their assigned functions. Our consideration of the internal control over
financial reporting would not necessarily disclose all matters in the internal control that
might be reportable conditions and, accordingly, would not necessarily disclose all reportable
conditions that are also considered to be material weaknesses. However, we believe that the
above reportable conditions described in the three findings are material weaknesses.

This report is intended solely for the information and use of the Missouri Botanical Garden
and the National Science Foundation and is not intended to be and should not be used by
anyone other than these specified parties.




June 7, 2002




                                                                                           10
                            MISSOURI BOTANICAL GARDEN
                     Findings and Recommendations on Internal Control
                      For the Years ended December 31, 1999 and 2000

                                     Material Weaknesses

1. General Ledger Does Not Separately Identify Direct and Indirect Costs

        Effective internal controls and Federal administrative guidelines require that
recipients of Federal funds have a financial management system that allows it to determine
which of its costs are direct and which are indirect. The financial management system
should provide effective controls over and accountability for all funds; written procedures for
determining the reasonableness, allocability and allowability of costs in accordance with
applicable Federal cost principles, which specifically discuss allocation of direct and indirect
costs; and accounting records, including cost accounting records, that are supported by
source documentation.

       MBG does not have a financial management system that allows it to determine
readily which of its costs are direct and which are indirect. MBG's general ledger, which
contains approximately 50 cost centers, does not separate direct from indirect costs; and
MBG only breaks out direct and indirect costs in the cost centers when it prepares indirect
cost proposals. This process requires MBG to prepare extensive worksheets that indicate, for
each type of expense, the costs applicable to either the direct or indirect cost pool.

        For example, each of the 50 departmental cost centers post salaries and wages to the
general ledger; and although the salaries and wages could contain both direct and indirect
costs, no centers delineate between these two cost categories at the time of posting to the
ledger. Rather, the determination of direct and indirect payroll costs to calculate rates for the
indirect cost proposals requires the preparation of various worksheets, including one that lists
every employee by department, job and salary, and the breakdown of that salary into direct
and indirect costs. MBG's general ledger, however, does not segregate direct from indirect
costs as these costs are incurred, because it was never set up to identify the indirect cost
pools for Federal purposes, and because staff concluded that the delineation of these two cost
categories by means of worksheets was adequate. However, as a result of mixing the costs in
the general ledger, MBG cannot easily use it to identify the actual direct and indirect costs
incurred by department, expense account, or indirect cost proposal category and has to
perform additional cumbersome calculations, which are inefficient and have resulted in
errors, such as those found in this audit.

Recommendation

       We recommend that the Director of NSF's Division of Acquisition and Cost Support
in conjunction with the Director of the Division of Grants and Agreements require MBG to
modify its current general ledger system so that it segregates all costs into their direct and
indirect components, as required by effective internal controls and Federal administrative
guidelines.




                                                                                              11
	




    Auditee's Response

           MBG finds the recommended modification of the general ledger system to be
    impractical in the short run. Instead, for the near future MBG will use an excel spreadsheet
    to compile the data. Since MBG now has an extemporaneous system to capture actual time
    worked for direct and indirect costs, and can base its excel spreadsheet calculations on this
    actual data, this method will effectively determine and account for direct costs and indirect
    costs. Then, in July, 2004, MBG will move to a new accounting system that will enable it to
    charge direct and indirect costs directly to the general ledger as these costs are incurred.

    Auditors' Response to Auditee's Response

          MBG agrees with our finding and acknowledges the need to modify its general ledger
    system. The interim solution of utilizing excel spreadsheets pending the installation of a new
    accounting system in July, 2004 is an adequate, temporary solution.

    2. Inadequate Procedures to Prepare Indirect Cost Rate Proposals

            Effective internal controls require an organization to have written policies and
    procedures detailing processes for the preparation of indirect cost rate proposals that comply
    with Federal requirements. Written procedures provide guidance on what costs are allowable
    or unallowable, what costs are direct or indirect, and what costs are included or excluded
    from indirect cost rate calculations. MBG does not have written policies and procedures
    explaining its processes for proposing indirect cost rates because its staff did not understand
    the role of such policies and procedures in ensuring accurate indirect cost rate calculations.
    The lack of written procedures for the preparation of indirect cost rate proposals contributed
    to material errors in MBG's calculation of its indirect cost rates for the two-year period
    ended December 31, 2000.

            Specifically, MBG overstated its indirect costs by $4,059,102 over those two years by
    erroneously including direct curatorial costs in the indirect cost pools. (See Schedules B-1
    and B-2). OMB Circular A-122 states that "[d]irect costs are those that can be identified
    specifically with a particular final cost objective, i.e., a particular award, project, service, or
    other direct activity of an organization." More generally, direct costs are those that can be
    identified with an organization's mission. Since MBG's mission is to discover and share
    knowledge about plants, MBG's curatorial costs to collect, preserve and maintain plants are
    part of its mission-related costs. Alternatively its curatorial costs are project-specific
    expenses. In either case, MBG's curatorial costs are direct costs and should have been
    excluded from the indirect cost pools.

          MBG also incorrectly classified $423,540 of costs in the direct cost bases. It both
    understated and overstated its bases by a net amount of $77,176. 1 As a result of errors in
    computing its indirect cost pools and direct cost bases, MBG proposed indirect cost rates as
    much as 52 percent higher than it actually incurred. In addition, MBG charged NSF

     Subcontract and fixed asset costs, which should have been excluded from the direct cost bases:          ($ 173,182)
    Costs that should have been included in the direct cost bases*:                                           $250,358
    Net amount added to the direct cost bases for the two years audited:                                      $ 77,176

    *The $250,358 that should have been included in the direct cost base represents the difference between actual cost
    per the books of account and the costs per the indirect cost proposals.
                                                                                                                         12
$19,024, more of indirect costs than it incurred or 6.7 percent of total claimed indirect costs
on the 14 NSF awards active during the audit period.

Recommendation

       We recommend that the Director of NSF's Division of Acquisition and Cost Support
in conjunction with the Director of the Division of Grants and Agreements require MBG to
a) develop and implement written policies and procedures to document how it calculates
indirect cost rates in compliance with Federal and NSF requirements, and b) keep its
financial staff up-to-date on these requirements.

Auditee's Response

        MBG has begun to develop the recommended written policies and procedures.
However, MBG disagrees with the finding that $4,059,102 of curatorial costs should be
excluded from the indirect cost pool. Curatorial costs are incurred to collect and maintain
natural history specimens, which are made available to all researchers. MBG believes that
these costs are not project-specific, and should be included in the indirect cost pool. Further,
MBG has contacted the California Academy of Sciences and the Field Museum in Chicago,
institutions similar in size and programs and with similar amounts of funding from NSF and
other Federal agencies. Like MBG, both organizations maintain herbarium collections for
research, and both include their curatorial costs in their indirect cost pools. MBG requests
that the proposed adjustment to exclude curatorial costs be reversed and the rate restored to
reflect that change.

Auditors' Response to Auditee's Response

        MBG does not address the issue that its curatorial costs for plant collection and
preservation are mission-related, and as such, are direct costs. In addition, we reserve
comment on MBG's response regarding other similar institutions, since we have not audited
those institutions. However, NSF-OIG contacted four other botanical gardens that classify
curatorial costs as direct costs. (See the letter OIG has attached to the copy of this report for
NSF management).

3. Inadequate Payroll Allocation and Time and Attendance Records

       Federal cost principles require that an organization receiving Federal funds should
maintain personal activity reports to record the actual time employees worked on federal
awards. Federal cost principles also require personal activity reports for employees who
work on both direct and indirect cost activities.

        MBG did not prepare personal activity reports to record the actual time worked by
employees as required by Federal guidelines. MBG allocated the time for approximately
180-190 staff respectively for 1999 and 2000 to the direct or indirect cost pools; but it did not
support this allocation with certified after-the-fact personal activity reports. MBG's
"allocation plan" is a monthly worksheet, prepared by the Director of Research, which is
based upon award budgets. This worksheet allocates salary costs to each award based not on
actual labor effort but on budgeted estimates of each applicable staff person's labor efforts,
usually in monthly equivalents.
                                                                                               13
       MBG does maintain time records for all employees. However, the records merely
indicate whether an employee was working on a particular day during a pay period. The
time records for hourly staff indicate hours worked on a daily basis, and holiday and leave
time utilized. The time records for salaried staff are payroll by exception and only indicate if
the employee is absent and whether the absence represents holiday or leave time. Neither
time records indicate the actual time worked on each award nor do the records differentiate
between the time an employee spent on direct versus indirect activities.

        More specifically, for the indirect cost proposals we audited, MBG did not maintain
personal activity reports to support its allocation of costs between research (i.e., direct
expenses) and curatorial costs (incorrectly classified as indirect costs). Thus, MBG not only
erroneously included $4 million of curatorial costs in the indirect cost pool but also allocated
approximately 40 percent of research depar tment costs to indirect cost the pool on the basis
of management review of departmental job classifications, not actual time card records.
Also, MBG should have personal activity reports for all "research" employees whose salaries
and wages are included in the direct cost base, because even if management estimates that
these persons spend 100 percent of their time on direct research costs, it is likely that some of
their time is spent in indirect cost activities, such as preparing proposals; and the estimates
may be inaccurate.

Recommendation

       We recommend that the Directors of NSF's Divisions of Division of Acquisition and
Cost Support in conjunction with the Director of the Division of Grants and Agreements
require MBG to maintain detailed time and effort records to document 1) the actual time
worked on each project/award, and 2) the direct and indirect cost allocations for all
employees (including all those currently classified 100 percent as research staff), who spend
time on both indirect and direct cost activities.

Auditee's Response

       MBG agrees with this finding and has implemented a time-keeping system to
document the actual time worked on each project/award as well as time spent on direct and
indirect cost activities. These hours are recorded on individual time sheets and subsequently
summarized on a spreadsheet to create the necessary direct/indirect allocations.

Auditors' Response to Auditee's Response

       We have reviewed a sample of time records that MBG provided to us, and they
indicate that the new timekeeping system adequately addresses the recommendation.




                                                                                              14
                               MISSOURI BOTANICAL GARDEN
                          Finding and Recommendation on Compliance
                         For the years ended December 31, 1999 and 2000

                                         Material Deficiency


1. Indirect Cost Proposal Not Submitted Annually

       OMB Circular A-122 specifies that organizations that have previously established
indirect cost rates must submit a new indirect cost proposal to the cognizant agency within
six months after the close of each fiscal year. NSF is MBG's cognizant agency because it
provides the Garden with the largest dollar volume of awards among all Federal agencies
providing research and/or education related funding.

        However, MBG has not submitted its indirect cost proposal to NSF on an annual
basis. Prior to fiscal year 2000, the indirect cost proposal had been prepared and submitted
on a bi-annual basis (FY 1999, 1997, 1995, etc.). MBG did, however, submit an indirect cost
proposal for FY 2000 upon NSF's specific request. MBG stated that its standard practice
was to submit indirect cost proposals to NSF every other year because NSF's Cost Analysis
Resolution Branch approved its biennial practice orally, but not in writing. 2 The annual
preparation and submission of an indirect cost proposal for multi-year awards is critical
because conditions often occur that affect the final proposed rate from one year to the next.

Recommendation

        We recommend that the Directors of NSF's Division of Acquisition and Cost Support
in conjunction with the Division of Grants and Agreements require MBG to submit annual
indirect cost proposals.

Auditee's Response

        MBG will comply with this recommendation.

Auditors' Response to Auditee's Response

       Since MBG is willing to submit its indirect cost rate proposal on an annual basis a
response is not necessary.




2
 NSF's Cost Analysis and Audit Resolution Branch does not recall approving this practice orally or in
writing.
                                                                                                        15
    SECTION III

FINANCIAL SCHEDULES




                      16
National Science Foundation
Office of Inspector General
4201 Wilson Boulevard
Arlington, Virginia 22230

                        INDEPENDENT AUDITORS' REPORT

We have audited the indirect cost proposals, the Missouri Botanical Garden has proposed as
applicable to the National Science Foundation and other federal awards for the years ended
December 31, 1999 and 2000. These indirect cost proposals, as presented in the schedules of
indirect/direct costs (Schedules B-1 and B-2) and the schedule of over/(under) recovered on-
site indirect costs (Schedule A) are the responsibility of the Missouri Botanical Garden 's
management. Our responsibility is to express an opinion on Schedules A and B-1 and B-2
based on our audit.

We conducted our audit in accordance with auditing standards generally accepted in the
United States of America, Government Auditing Standards issued by the Comptroller
General of the United States, and the National Science Foundation Audit Guide (September
1996). Those standards and the National Science Foundation Audit Guide require that we
plan and perform the audit to obtain reasonable assurance about whether the financial
schedules are free of material misstatement. An audit includes examining, on a test basis,
evidence supporting the amounts and disclosures in the financial schedules. An audit also
includes assessing the accounting principles used and significant estimates made by
management, as well as evaluating the overall financial schedule presentation. We believe
our audit provides a reasonable basis for our opinion.

The accompanying financial schedules were prepared for the purpose of complying with the
requirements of the National Science Foundation Audit Guide as described in Note 1, and are
not intended to be a complete presentation of financial position in conformity with
accounting principles generally accepted in the United States of America.

In our opinion, the financial schedules referred to above present fairly, in all material
respects, the indirect cost proposals (Schedules B-1 and B-2) and the resultant over/(under)
recovered indirect costs (Schedule A) for the years ended December 31, 1999 and 2000 on
the basis of accounting described in Note 1.




                                                                                         17
National Science Foundation
Office of Inspector General
Arlington, Virginia


In accordance with Government Auditing Standards, we have also issued our report dated
June 7, 2002 on our consideration of the Missouri Botanical Garden 's internal control over
financial reporting and on our tests of its compliance with laws and regulations. That report
is an integral part of an audit performed in accordance with Government Auditing Standards
and should be read in conjunction with this report in considering the results of our audit.

Schedules C-1 and C-2 contain indirect costs in the amount of $4,104,396 that are reductions
to the indirect costs proposed and $77,176 that are additions to the direct costs proposed for
the years ended December 31, 1999 and 2000. The final determination, as to whether such
costs are allowable or unallowable, will be made by the National Science Foundation. The
ultimate outcome of this determination cannot presently be determined.

This report is intended solely for the information and use of the Missouri Botanical Garden
and the National Science Foundation and is not intended to be and should not be used by
anyone other than these specified parties.




June 7, 2002




                                                                                           18
	




                                                          MISSOURI BOTANICAL GARDEN
                             Schedule of Over/(Under) Recovered On-Site Indirect Costs on National Science Foundation Awards
                                                  For the Period January 1, 1999 to December 31, 2000

	                                      Indirect Cost Rate Approved/Billed	       Indirect Costs Rates Proposed/Audited	                                         Indirect Costs	
                                                                                                                                                          Allowed         Over/ (Under) Over/ (Under)
                                                                                            Proposed   Audited   Schedule                 Claimed To     (Approved        Recovered Per Recovered Per Comment/
    NSF Award Number   Award Period	      Cost Method	                Rate   Year Ended 	     Rate	     Rate     Reference   Per Audit	      NSF	      (Rate x MTDC) Audited Rate Allowed Rate	         Notes




                                                                                                                                                                                                                 C)
                                                                                                                                                                                                                 e
                                                                                                                                                                                                                 >y
                                                                                                                                                                                                                 >r
                                                                                                                                                                                                                 e



    See accompanying notes to these financial schedules.
                                                               MISSOURI BOTANICAL GARDEN
                              Schedule of Over/(Under) Recovered On-Site Indirect Costs on National Science Foundation Awards (Cont.)
                                                       For the Period January 1, 1999 to December 31, 2000




    MTDC = Modified Total Direct Costs. (Total direct program costs less equipment and participant support costs).
    (A) Rate per negotiated agreement with NSF.
    (B)   Rate per award and/or award budget.
    (C)   Rate billed by MBG.
    (D)   (Under) recovered indirect costs cannot be recovered on this award since the award is closed and the total costs (direct and indirect) were billed up to the budget maximum.

    (E)   For awards with predetermined fixed indirect costs rates, NSF allows awardees to bill at either the rate established at the time the award was provided for the lifetime of the award or at the rates negotiated for each of the subsequent years
          of the award. The only requirement NSF imposes on this decision is that the awardee uses the selected method consistently to charge its indirect costs on all its NSF awards.' MBG's practice is to use the indirect cost rate in the award
          letter for the life of the award.




    ' See GPM (02-151), section 633.1 b2 for restrictions on the option to use each year's negotiated rate for indirect cost recovery.




N
O

    See accompanying notes to these financial schedules.
                                                                 MISSOURI BOTANICAL GARDEN
                                                     Schedule of Over/(Under) Recovered Off-Site Indirect Costs on
                                                                  National Science Foundation Awards
                                                         For the Period January 1, 1999 to December 31, 2000

                                      Indirect Cost Rate Approved/Billed     Indirect Costs Rates Proposed/Audited                                      Indirect Costs
                                                                                                                                                   Allowed       Over/ (Under) Over (Under)
                                                                                         Proposed   Audited Schedule               Claimed To     (Approved     Recovered Per Recovered Per Comment/
    NSF Award Number   Award Period        Cost Method               Rate   Year Ended     Rate      Rate Reference    Per Audit       NSF      Rate x MTDC) Audited Rate Allowed Rate        Notes




                                                                                                                                                                                                       CD
                                                                                                                                                                                                       fe


                                                                                                                                                                                                       e

N

    See accompanying notes to these financial schedules.
                                                                         Schedule A-1 (Cont.)

                             MISSOURI BOTANICAL GARDEN
                 Schedule of Over/(Under) Recovered Off-Site Indirect Costs on
                             National Science Foundation Awards
                     For the Period January 1, 1999 to December 31, 2000


Comments/Notes:

MTDC = Modified Total Direct Costs. (Total direct program costs less equipment and
participant support costs).

(A) Rate per negotiated agreement with NSF.

(B)   Rate per award and/or award budget.

(C)   Rate billed by MBG.

(D)   No off-site rate specified in the award or award budget.

(E)   (Under) recovered indirect costs cannot be recovered on this award since the award is
      closed and the total costs (direct & indirect) were billed up to the budget maximum.




See accompanying notes to these financial schedules.
                                                                                          22
                                                                               Schedule B-1

                            MISSOURI BOTANICAL GARDEN
                                   Indirect Cost Calculation
                           For the Year Ended December 31, 1999




Computation of Indirect Cost Rate:
On-Site Rate:
 Total indirect costs
 Total direct costs

Computed Indirect Cost Rate (On-Site)

Off-Site Rate:
 Total administrative indirect costs
 Total direct costs




(A) See Schedule B-la to B-If for breakdown of adjustments and eliminations.

(B) MBG indirect cost proposal utilized rounded rates of 87.3% and 18.6%, respectively.




See accompanying notes to these financial schedules.
                                                                                          23
                                                                         Schedule B-1 a

                           MISSOURI BOTANICAL GARDEN
                                  Schedule of Direct Costs
                          For the Year Ended December 31, 1999


                                                          A -A4-1




(A)   The amounts agree with the indirect cost rate proposal submitted by the Missouri
      Botanical Garden (MBG).       The total costs before auditors' adjustments and
      eliminations agree with MBG's books of account, except as noted in the auditors'
      adjustments and eliminations.




See accompanying notes to these financial schedules.
                                                                                    24
	




                                                                                Schedule B-1b

                                 MISSOURI BOTANICAL GARDEN
                                    Schedule of Curatorial Expenses
                                For the Year Ended December 31, 1999

                                                                  Auditors'
                                                     (A)        Adjustments
                                                  Proposed          And               Allowable
	                   Expenses	                      Costs        Eliminations	           Costs




    (A) The amounts agree with the indirect cost rate proposal submitted by the Missouri
        Botanical Garden (MBG). The total costs before auditors' adjustments and eliminations
        agree with MBG's books of account.

    (B) Allocation based upon a reduction for outside public use of MBG research facilities of
        6.37757%. Therefore the actual usage is 93.62243% (100% - 6.37757%).

    *   The adjustment from the referenced schedule was increased to the total proposed costs
        due to the elimination of curatorial costs from the indirect cost pool.


    See accompanying notes to these financial schedules.
                                                                                           25
	




                                                                                 Schedule B-lc

                                MISSOURI BOTANICAL GARDEN
                                    Schedule of Library Expenses
                               For the Year Ended December 31, 1999

                                                                   Auditors'
                                                       (A)       Adjustments
                                                     Proposed        and               Allowable
	                    Expenses	                        Costs      Eliminations	           Costs




    (A) The amounts agree with the indirect cost rate proposal submitted by the Missouri
        Botanical Garden (MBG). The total costs before auditors' adjustments and eliminations
        agree with MBG's books of account.

    (B) Allocation based upon a reduction for outside public use of MBG research facilities of
        6.37757%. Therefore the actual usage is 93.62243% (100% - 6.37757%).

    * See allocation adjustment in referenced schedule.




    See accompanying notes to these financial schedules.
                                                                                           26
	




                                                                                Schedule B-Id

                                  MISSOURI BOTANICAL GARDEN
                                  Schedule of Administrative Expenses
                                 For the Year Ended December 31, 1999

                                                                Auditors'
                                                     (A)      Adjustments
                                                  Proposed        and        Note   Allowable
	                    Expenses	                      Costs     Eliminations   No.	     Costs




    (A) The amounts agree with the indirect cost rate proposal submitted by the Missouri
        Botanical Garden (MBG). The total costs before auditors' adjustments and eliminations
        agree with MBG's books of account.
    (B) The allocation percentages are based upon the total direct costs of the curatorial,
        library, research and other departments as a percentage of this total.

    * See allocation adjustment in referenced schedule.


    See accompanying notes to these financial schedules.
                                                                                          27
	




                                                                                 Schedule B-1e

                              MISSOURI BOTANICAL GARDEN
              Schedule of Maintenance, Security, Utilities and Other Related Expenses
                             For the Year Ended December 31, 1999


                                                             Auditors'
                                                (A)        Adjustments
                                             Proposed          and        Note     Allowable
	                 Expenses	                   Costs        Eliminations   No.	       Costs




    See accompanying notes to these financial schedules.
                                                                                           28
	




                                                                          Schedule B-1e Cont.)

                              MISSOURI BOTANICAL GARDEN
          Schedule of Maintenance, Security, Utilities and Other Related Expenses (Cont.)
                             For the Year Ended December 31, 1999


                                                             Auditors'
                                                (A)        Adjustments
                                             Proposed          and         Note     Allowable
	                 Expenses	                   Costs        Eliminations    No.	       Costs




    (A) The amounts agree with the indirect cost rate proposal submitted by the Missouri
        Botanical Garden (MBG). The total costs before auditors' adjustments and eliminations
        agree with MBG's books of account.

    (B) The allocation reductions are for work performed outside of the buildings, which
        equates to non-research expenses for indirect costs.

    (C) Allocation are based upon the applicable square footage utilized by curatorial, library,
        administrative and other departments.




    See accompanying notes to these financial schedules.
                                                                                             29
	




                                                                                   Schedule B-1f

                                  MISSOURI BOTANICAL GARDEN
                                   Schedule of Depreciation Expenses
                                 For the Year Ended December 31, 1999


                                                                    Auditors'
                                                      (A)         Adjustments
                                                   Proposed           and            Allowable
                     Expenses	                       Costs        Eliminations	        Costs




    (A) The amounts agree with the indirect cost rate proposal submitted by the Missouri
        Botanical Garden (MBG). The total costs before auditors' adjustments and eliminations
        agree with MBG's books of account.

    (B) Allocations are based upon square footage for building depreciation and use of asset for
        all other assets, for curatorial, library, administrative and other departments.




    See accompanying notes to these financial schedules.
                                                                                              30
	




                                                                                    Schedule B-2

                               MISSOURI BOTANICAL GARDEN
                                     Indirect Cost Calculations
                              For the Year Ended December 31, 2000

                                                                          (A)
                                                                        Auditors'
                                                                      Adjustments
                                                           Proposed       and          Allowable
	                        Expenses	                           Costs    Eliminations	      Costs




    Note: The audited off-site indirect cost rate could not be determined due to MBG not
          properly determining off-site direct/indirect costs.        MBG merely utilized the
          administrative indirect cost component of their total indirect cost pool.

    (A) See Schedules B-2a to B-2f for breakdown of adjustments and eliminations.

    (B) MBG indirect cost proposal utilized rounded rate of 17.7%.

    See accompanying notes to these financial schedules.
                                                                                             31
	




                                                                                  Schedule B-2a

                                MISSOURI BOTANICAL GARDEN
                                       Schedule of Direct Costs
                               For the Year Ended December 31, 2000


                                                                Auditors'
                                                  (A)         Adjustments
                                               Proposed           and      Note     Allowable
	                  Expenses	                     Costs        Eliminations No.        Costs




    (A) The amounts agree with the indirect cost rate proposal submitted by the Missouri
         Botanical Garden (MBG). The total costs before auditors' adjustments and eliminations
         agree with MBG's books of account, except as noted in the auditors' adjustments and
         eliminations.




    See accompanying notes to these financial schedules.
                                                                                            32
	




                                                                                 Schedule B-2b

                               MISSOURI BOTANICAL GARDEN
                                  Schedule of Curatorial Expenses
                              For the Year Ended December 31, 2000




    (A) The amounts agree with the indirect cost rate proposal submitted by the Missouri
        Botanical Garden (MBG). The total costs before auditors' adjustments and eliminations
        agree with MBG's books of account, except as noted in the auditors' adjustments and
        eliminations.

    (B) Allocation based upon a reduction for outside public use of MBG research facilities of
        7.6537%. Therefore the actual usage is 92.3463% (100% - 7.6537%).

    *    The adjustment from the referenced schedule was increased to the total proposed costs
         due to the elimination of curatorial costs from the indirect cost pool.


    See accompanying notes to these financial schedules.
                                                                                            33
	




                                                                                   Schedule B-2c

                                  MISSOURI BOTANICAL GARDEN
                                      Schedule of Library Expenses
                                 For the Year Ended December 31, 2000

                                                               Auditors'
                                                    (A)      Adjustments
                                                  Proposed       and        Note      Allowable
	                    Expenses	                     Costs     Eliminations   No.	        Costs




    (A) The amounts agree with the indirect cost rate proposal submitted by the Missouri
        Botanical Garden (MBG). The total costs before auditors' adjustments and eliminations
        agree with MBG's books of account.

    (B) Allocation based upon a reduction for outside public use of MBG research facilities of
        7.6537%. Therefore the actual usage is 92.3463% (100% - 7.6537%).

    * See allocation adjustment in referenced schedule.




    See accompanying notes to these financial schedules.
                                                                                             34
	




                                                                                Schedule B-2d

                                  MISSOURI BOTANICAL GARDEN
                                  Schedule of Administrative Expenses
                                 For the Year Ended December 31, 2000


                                                                Auditors'
                                                     (A)      Adjustments
                                                  Proposed        and        Note   Allowable
                     Expenses	                      Costs     Eliminations   No.	     Costs




    (A) The amounts agree with the indirect cost rate proposal submitted by the Missouri
        Botanical Garden (MBG). The total costs before auditors' adjustments and eliminations
        agree with MBG's books of account.

    (B) The allocation percentages are based upon the total direct costs of the curatorial,
        library, research and other departments as a percentage of this total.

    * See allocation adjustment in referenced schedule.
    See accompanying notes to these financial schedules.
                                                                                          35
                                                                             Schedule B-2e

                          MISSOURI BOTANICAL GARDEN
          Schedule of Maintenance, Security, Utilities and Other Related Expenses
                         For the Year Ended December 31, 2000




See accompanying notes to these financial schedules.
                                                                                       36
	




                                                                              Schedule B-2e (Cont.)

                              MISSOURI BOTANICAL GARDEN
          Schedule of Maintenance, Security, Utilities and Other Related Expenses (Cont.)
                             For the Year Ended December 31, 2000


                                                                 Auditors'
                                                    (A)        Adjustments
                                                 Proposed          And          Note     Allowable
	                   Expenses	                      Costs       Eliminations     No.	       Costs




    (A) The amounts agree with the indirect cost rate proposal submitted by the Missouri
        Botanical Garden (MBG). The total costs before auditors' adjustments and eliminations
        agree with MBG's books of account.

    (B) The allocation reductions are for work performed outside of the buildings, which
        equates to non-expenses for indirect costs.

    (C) Allocations are based upon the applicable square footage utilized by curatorial, library,
        administrative and other departments.




    See accompanying notes to these financial schedules.
                                                                                                37
	




                                                                                   Schedule B-2f

                                MISSOURI BOTANICAL GARDEN
                                 Schedule of Depreciation Expenses
                               For the Year Ended December 31, 2000



                                                                 Auditors'
                                                     (A)       Adjustments
                                                   Proposed        and          Note    Allowable
	                    Expenses	                      Costs      Eliminations     No.	      Costs




    (A) The amounts agree with the indirect cost rate proposal submitted by the Missouri
        Botanical Garden (MBG). The total costs before auditors' adjustments and eliminations
        agree with MBG's books of account, except as noted in the auditors' adjustments and
        eliminations.

    (B) Allocations are based upon square footage for building depreciation and use of asset for
        all other assets, for curatorial, library, administrative and other departments.



    See accompanying notes to these financial schedules.
                                                                                              38
	




                                                                                          Schedule C

                                  MISSOURI BOTANICAL GARDEN
                           Schedule of Auditors' Adjustments and Eliminations
                            For the years ended December 31, 1999 and 2000

    The amounts as proposed by MBG in their indirect cost proposals for the years ended
    December 31, 1999 and 2000 (Schedules B-1 and B-2) required various adjustments and
    eliminations to the indirect cost or direct cost pools. These adjustments and/or eliminations are
    presented in Schedules B-1 and B-2. On the following pages in Schedules C-1 and C-2 these
    adjustments and/or eliminations are detailed. Presented below is a brief summary of the type of
    adjustment and/or elimination along with the relevant criteria.

            Adjustment and/or Elimination                                  Criteria

    To eliminate curatorial costs.                     Per the MBG Mission Statement, Curatorial
                                                       costs are directly related to the mission of
                                                       MBG and should not be treated as or
                                                       included in the indirect costs pool.

    Adjust costs per indirect cost proposal to agree    OMB      Circular A-110,       Subpart     C,
    with General Ledger.                               paragraph H 21(b)(1) requires accurate,
                                                        current and complete disclosure of the
                                                       financial results of each federally sponsored
                                                       project or program.

    Fixed assets (equipment and capital                OMB Circular A-122, Attachment A,
    expenditures) included in the direct and           PartD(3)69 states that equipment, capital
    indirect cost pools.                               expenditures and the portion of subcontracts
                                                       in excess of $25, 000 shall be excluded from
                                                       modified total direct costs.

    Missing or inadequate source documentation in      OMB Circular A-110, Subpart C, paragraph
    the form of a vendor invoice. Without the          21 (b) (7) requires accounting records that
    vendor invoice determination of the allowability   are supported by source documentation.
    of the cost cannot be determined.

    The cost of alcoholic beverages that were          OMB Circular A-122, Attachment B, item 2,
    included in indirect and direct costs.             states that the costs of alcoholic beverages
                                                       are unallowable.

    The cost of business-class airfares that were      OMB      Circular A-122,         Attachment B,
    included in indirect costs.                        Item 55(c), states that the difference in cost
                                                       between first-class (business-class) air
                                                       accommodations and less than first-class
                                                       (business-class) air accommodations is
                                                       unallowable except when less than first-class
                                                       (business-class) are not reasonably available
                                                       to meet necessary mission requirements.




                                                                                                  39
                                                                             Schedule C (Cont.)

                             MISSOURI BOTANICAL GARDEN
                  Schedule of Auditors' Adjustments and Eliminations (Cont.)
                       For the years ended December 31, 1999 and 2000


Auditee's Response

(A) To eliminate curatorial costs:

      The Garden believes these costs should be restored. Pleas see the Garden's response
      and rationale to Material Weakness Point 2 above.

(B) Adjust costs to agree with general ledger:

      Attributed to clerical errors made during the rate data compilation process.

(C) Fixed assets included in direct and indirect cost pools:

      For financial reporting purposes, the Garden records as fixed assets, those items in
      excess of $15,000. Due to an oversight, items between $5,000 and $15,000 were not
      reclassified out of the cost pools when the rate was calculated. Future rate calculations
      will include the necessary adjustments to exclude these items.

(D) Missing vendor invoices:

      During the audit process, the staff were unable to find several misfiled documents. A
      subsequent search did locate a number of the misfiled documents, and copies are
      attached for audit purposes.

(E) The cost of alcoholic beverages were included in the cost pool:

      Due to a clerical oversight, certain out-of-town meal costs including alcohol were
      misclassified as travel. Procedures now include a step to review such costs to ensure
      alcohol is not included the rate calculation.

(F)   The cost of business class airfares were included in the cost pool:

      The Garden's employee handbook directs that economy fares be used. However, in
      rare cases, business class is used to accommodate schedule and destination
      requirements. It is the intention of the Garden to remove these types of costs from the
      calculation, but, due to an oversight, the identified business class fares were not
      eliminated from the calculation.




                                                                                            40
                                                                           Schedule C (Cont.)

                            MISSOURI BOTANICAL GARDEN
                  Schedule of Auditors' Adjustments and Eliminations (Cont.)
                      For the years ended December 31, 1999 and 2000


Auditors' Response to Auditee's Response

(A):

MBG's exception to the exclusion of curatorial costs and our response was previously
discussed in Findings and Recommendations on Internal Control, Finding Number 2. The
amount remains as stated.

(B), (C), (E) & (F):

MBG concurs with our adjustments and eliminations, therefore, the amounts remain as
stated.



MBG provided documentation for FYI 999 to support $6,380 of administrative expenses and
$5,700 of maintenance expenses. No additional documentation was provided for FY1999 or
FY2000. As a result of the documentation provided the audited on-site indirect cost rate for
FY1999 increased from 41.99% to 42.03%. The audited off-site indirect cost rate for
FYI 999 increased from 18.52% to 18.56%. Due to the immaterial changes in these rates, we
have not adjusted the schedules in this report to reflect these changes.




                                                                                          41
                                                         MISSOURI BOTANICAL GARDEN
                                                   Schedule of Auditors' Adjustments and Eliminations
                                                         For the year ended December 31, 1999


                                                                                                                                    Other Expenses
                                                                                    Direct Salaries    Direct
           Adjustment and Elimination                 Total         Curatorial           and           Fringe                                          Maintenance,
                  Explanation                        Amount          Costs              Wages         Benefits           Direct     Administrative         Etc.

To eliminate curatorial costs associated with
  MBG mission statement.                            $ (2,213,930)   $ (2,213,930)      S              $              $               $                  $

To adjust indirect cost proposal per final costs
  per books of account.                                  96,035                            (74,411)       (19,498)       189,944

Fixed assets and subcontracts not previously
  eliminated by MBG.                                    (99,551)                                                         (98,087)                            (1,464)

Missing documentation (vendor invoice not
 available or insufficient detail provided).            (25,050)                                                                         (6,380) (A)        (18,670)(B)

Alcoholic beverages costs included in the
  indirect cost pool.                                      (138)                                                                           (138)

      Totals                                       $ (2,242,634)    $-(2,213,930)      x(74.411)      $(19,498)      $ 91,857         S(6,519)         $(20,13 4)




(A) Documentation provided by MBG with their response to the draft report.

(B)     Documentation for $5,700 provided by MBG with their response to the draft report.

                                                                                                                                                                          rn
                                                                                                                                                                          C)

                                                                                                                                                                          2-
                                                                                                                                                                          CD




N
                                                                                                                                                                          n
                                                                                                                                                                          CD



                                                                                                                                                                          2
          MISSOURI BOTANICAL GARDEN
    Schedule of Auditors' Adjustments and Eliminations
          For the year ended December 31, 2000




                                                         CD
                                                         e
                                                         a
                                                         e

w                                                        N
                            MISSOURI BOTANICAL GARDEN
                                Notes to Financial Schedules
                      For the years ended December 31, 1999 and 2000


1. Summary of Significant Accounting Policies:

The accompanying financial schedules have been prepared in conformity with National
Science Foundation (NSF) instructions. Schedules B-1 and B-2 have been prepared from the
indirect cost proposals prepared by the Missouri Botanical Garden and Schedule A, has been
prepared based upon the results of the audit of Schedules B-1 and B-2. The schedules do not
present the complete financial position of the Missouri Botanical Garden. In accordance
with NSF instructions, there are no schedules of financial position, statement of activities or
statement of cash flows.

2.   Income Taxes:

The Missouri Botanical Garden is a private nonprofit charitable trust. The Missouri Botanical
Garden is exempt from income taxes under Section 501(c)(3) of the Internal Revenue Code.
It is also exempt from State of Missouri income tax.




                                                                                            44
        SECTION IV

SUPPLEMENTARY INFORMATION




                            45
National Science Foundation
Office of Inspector General
4201 Wilson Boulevard
Arlington, Virginia 22230


   INDEPENDENT AUDITORS' REPORT ON SUPPLEMENTARY INFORMATION

Our report on our audit of the schedule of over/(under) recovered indirect costs and
schedules of indirect and direct costs (the basic financial schedules) of the Missouri
Botanical Garden for the years ended December 31, 1999 and 2000, appears in Schedule A
and Schedules B-1 and B-2. The audit was made for the purpose of forming an opinion on
the basic financial schedules taken as a whole. The supplementary information presented in
Schedules D-1 to D-14 and Schedule E are presented for purposes of supplementary analysis
and are not a required part of the basic financial schedules. The supplementary information
has not been subjected to the auditing procedures applied in the audit of the basic financial
schedules and, accordingly, we express no opinion on them.




June 7, 2002




                                                                                          46
                                                                         Schedule D-1

               National Science Foundation Award Number DEB-9307063
                                      Awarded To
                          MISSOURI BOTANICAL GARDEN
                   Schedule of Over (Under) Recovered Indirect Costs
                   For the Period January 1, 1999 to June 30, 1999 (A)
                                          Final
                                       (Unaudited)




See accompanying independent auditors' report.
                                                                                 47
	




                                                                             Schedule D-1 (Cont.)

                    National Science Foundation Award Number DEB-9307063
                                           Awarded To
                               MISSOURI BOTANICAL GARDEN
                    Schedule of Over (Under) Recovered Indirect Costs (Cont.)
                        For the Period January 1, 1999 to June 30, 1999 (A)
                                               Final
                                            (Unaudited)

                                                                                    FYE
                   Cost Category                                                  12/31/99




    (A) The award period is January 15,1994 to June 30, 1999.

    (B) The total direct costs plus the claimed indirect costs total $21,068 for the period
        January 1, 1999 to June 30, 1999. This amount, added to the cumulative costs of
        $83,932 at December 31, 1998, agrees with the cumulative net disbursements on the
        FCTR as of the quarter ended June 30, 1999.

    (C) Indirect costs were based upon the rate specified above as "Rate Billed to NSF."

    (**) Award letter does not have approved rates. Rates per MBG proposed budget.




                                                                                             48
                                                                          Schedule D-2

                National Science Foundation Award Number DEB-9420140
                                       Awarded To
                           MISSOURI BOTANICAL GARDEN
                    Schedule of Over (Under) Recovered Indirect Costs
                   For the Period January 1, 1999 to March 31, 2000 (A)
                                           Final
                                        (Unaudited)




See accompanying independent auditors' report.
                                                                                 49
                                                                          Schedule D-2 (Cont.)

                National Science Foundation Award Number DEB-9420140
                                       Awarded To
                           MISSOURI BOTANICAL GARDEN
                Schedule of Over (Under) Recovered Indirect Costs (Cont.)
                   For the Period January 1, 1999 to March 31, 2000 (A)
                                           Final
                                        (Unaudited)




(A) The award period is April 1, 1995 to March 31, 2000.

(B) The total direct costs plus the claimed indirect costs total $22,649 for the period
    January 1, 1999 to December 31, 1999. This amount, added to the cumulative costs of
    $52,351 at December 31, 1998, agrees with the cumulative net disbursements on the
    FCTR as of the quarter ended March 31, 2000

(C) Indirect costs were based upon the rate specified above as "Rate Billed to NSF."

(D) MBG did not claim direct or indirect costs for the period January 1, 2000 to March 31,
    2000.




See accompanying independent auditors' report.
                                                                                         50
                                                                         Schedule D-3

                National Science Foundation Award Number DEB-9522034
                                      Awarded To
                           MISSOURI BOTANICAL GARDEN
                    Schedule of Over (Under) Recovered Indirect Costs
                  For the Period January 1, 1999 to March 31, 2000 (A)
                                          Final
                                       (Unaudited)




See accompanying independent auditors' report.
                                                                                51
                                                                          Schedule D-3 (Cont.)

                 National Science Foundation Award Number DEB-9522034
                                       Awarded To
                           MISSOURI BOTANICAL GARDEN
                 Schedule of Over (Under) Recovered Indirect Costs (Cont.)
                   For the Period January 1, 1999 to March 31, 2000 (A)
                                           Final
                                       (Unaudited)




(A) The award period is September 1, 1995 to August 31, 2002.

(B) The total direct costs plus the claimed indirect costs total $289,089 for the period
    January 1, 1999 to December 31, 2000. This amount, added to the cumulative costs of
    $341,169 at December 31, 1998, agrees with the cumulative net disbursements reported
    on the FCTR as of the quarter ended December 31, 2000.

(C) Indirect costs were based upon the rate specified above as "Rate Billed to NSF."

(**)   Award letter does not have approved rates. Rates per MBG proposed budget.




See accompanying independent auditors' report.
                                                                                         52
                                                                           Schedule D-4

                National Science Foundation Award Number DEB-9525938
                                       Awarded To
                           MISSOURI BOTANICAL GARDEN
                    Schedule of Over (Under) Recovered Indirect Costs
                 For the Period January 1, 1999 to December 31, 2000 (A)
                                            Final
                                        (Unaudited)




See accompanying independent auditors' report.
                                                                                    53
                                                                        Schedule D-4 (Cont.)

                National Science Foundation Award Number DEB-9525938
                                       Awarded To
                           MISSOURI BOTANICAL GARDEN
                Schedule of Over (Under) Recovered Indirect Costs (Cont.)
                 For the Period January 1, 1999 to December 31, 2000 (A)
                                           Final
                                       (Unaudited)




(A) The award period is February 1, 1996 to December 31, 2000.

(B) The total direct costs plus the claimed indirect costs total $33,362 for the period
    January 1, 1999 to December 31, 2000. This amount, added to the cumulative costs of
    $36,848 at December 31, 1998, agrees with the cumulative net disbursements reported
    on the FCTR as of the quarter ended December 31, 2000.

(C) Indirect costs were based upon the rate specified above as "Rate Billed to NSF."

(D) Under recovered indirect costs cannot be recovered on this award since the award is
    closed and the total costs (direct and indirect) were billed up to the budget maximum.




See accompanying independent auditors' report.
                                                                                        54
                                                                           Schedule D-5

                National Science Foundation Award Number DEB-9627072
                                      Awarded To
                           MISSOURI BOTANICAL GARDEN
                    Schedule of Over (Under) Recovered Indirect Costs
                 For the Period January 1, 1999 to February 28, 2000 (A)
                                           Final
                                       (Unaudited)




See accompanying independent auditors' report.
                                                                                    55
                                                                         Schedule D-5 (Cont.)

                 National Science Foundation Award Number DEB-9627072
                                        Awarded To
                            MISSOURI BOTANICAL GARDEN
                 Schedule of Over (Under) Recovered Indirect Costs (Cont.)
                  For the Period January 1, 1999 to February 28, 2000 (A)
                                            Final
                                        (Unaudited)




(A) The award period is September 1, 1996 to February 28, 2000.

(B)   The total direct costs plus the claimed indirect costs total $85,123 for the period
      January 1, 1999 to February 28, 2000. This amount, added to the cumulative costs of
      $182,912 at December 31, 1998, agrees with the cumulative net disbursements reported
      on the FCTR as of the quarter ended June 30, 2000.

(C)   Indirect costs were based upon the rate specified above as "Rate Billed to NSF."

(D) Under recovered indirect costs cannot be recovered on this award since the award is
    closed and the total costs (direct and indirect) were billed up to the budget maximum.

(E)   No indirect costs claimed for 2000, direct costs utilized funds up to the budget
      maximum.




See accompanying independent auditors' report.
                                                                                          56
                                                           Schedule D-6

National Science Foundation Award Number DEB-9626747
                       Awarded To
           MISSOURI BOTANICAL GARDEN
    Schedule of Over (Under) Recovered Indirect Costs
 For the Period January 1, 1999 to December 31, 2000 (A)
                          Interim
                       (Unaudited)




                                                                    57
                                                                         Schedule D-6 (Cont.)

                 National Science Foundation Award Number DEB-9626747
                                        Awarded To
                            MISSOURI BOTANICAL GARDEN
                 Schedule of Over (Under) Recovered Indirect Costs (Cont.)
                  For the Period January 1, 1999 to December 31, 2000 (A)
                                           Interim
                                         (Unaudited)




(A) The award period is September 15, 1996 to August 31, 2002.

(B)   The total direct costs plus the claimed indirect costs total $62,645 for the period
      January 1, 1999 to December 31, 2000. This amount, added to the cumulative costs of
      $47,462 at December 31, 1998, agrees with the cumulative net disbursements reported
      on the FCTR as of the quarter ended December 31, 2000.

(C)   Indirect costs were based upon the rate specified above as "Rate Billed to NSF."

(**) Award letter does not have approved rates. Rates per MBG proposed budget.




See accompanying independent auditors' report.
                                                                                          58
	




                                                                                    Schedule D-7

                     National Science Foundation Award Number DEB-9626806
                                            Awarded To
                                MISSOURI BOTANICAL GARDEN
                         Schedule of Over (Under) Recovered Indirect Costs
                      For the Period January 1, 1999 to September 30, 1999 (A)
                                                 Final
                                             (Unaudited)


                                                                                   FYE
                   Cost Category                                                 12/31/99




    Breakdown of MTDC by On-Site and Off-Site/Calculation of Indirect Costs (I/C):

                                                    FYE 12/31/99
                                                 On-Site     Off-Site             Total

    Total MTDC                                    $ 165,313     $               $ 165,313
    Rate per I/C Audit                                41.99%        N/A

    Calculated I/C per audit                         69,415                     $ 69,415
    Claimed indirect (C)                              8,099                        8,099 (B)

    Over/(Under) recovered I/C                   $ (61,316)     $         -0-   $ (61,3 l) (D)




    See accompanying independent auditors' report.
                                                                                             59
                                                                         Schedule D-7 (Cont.)

                 National Science Foundation Award Number DEB-9626806
                                        Awarded To
                            MISSOURI BOTANICAL GARDEN
                 Schedule of Over (Under) Recovered Indirect Costs (Cont.)
                  For the Period January 1, 1999 to September 30, 1999 (A)
                                             Final
                                         (Unaudited)




(A)   The award period is October 1, 1996 to September 30, 1999.

(B)   The total direct costs plus the claimed indirect costs total $185,310 for the period
      January 1, 1999 to September 30, 1999. This amount, added to the cumulative costs of
      $391,070 at December 31, 1998, agrees with the cumulative net disbursements on the
      FCTR as of the quarter ended September 30, 1999.

(C)   Indirect costs were based upon the rate specified above as "Rate Billed to NSF."

(D)   Under recovered indirect costs cannot be recovered on this award since the award is
      closed, and the total costs (direct and indirect) were billed up to the budget maximum.

(**) Award letter does not have approved rates. Rates per MBG proposed budget.




See accompanying independent auditors' report.
                                                                                          60
                                                                           Schedule D-8

                National Science Foundation Award Number DEB-9870231
                                       Awarded To
                           MISSOURI BOTANICAL GARDEN
                    Schedule of Over (Under) Recovered Indirect Costs
                 For the Period January 1, 1999 to December 31, 2000 (A)
                                          Interim
                                        (Unaudited)




See accompanying independent auditors' report.
                                                                                    61
                                                                         Schedule D-8 (Cont.)

                 National Science Foundation Award Number DEB-9870231
                                        Awarded To
                            MISSOURI BOTANICAL GARDEN
                 Schedule of Over (Under) Recovered Indirect Costs (Cont.)
                  For the Period January 1, 1999 to December 31, 2000 (A)
                                           Interim
                                         (Unaudited)




(A)   The award period is August 15, 1998 to July 31, 2001.

(B)   The total direct costs plus the claimed indirect costs total $148,157 for the period
      January 1, 1999 to December 31, 2000. This amount, added to the cumulative costs of
      $9,571 at December 31, 1998, agrees with the cumulative net disbursements reported
      on the FCTR as of the quarter ended December 31, 2000.

(C)   Indirect costs were based upon the rate specified above as "Rate Billed to NSF."

(**) Award letter does not have approved rates. Rates per MBG proposed budget.




See accompanying independent auditors' report.
                                                                                          62
                                                                           Schedule D-9

                National Science Foundation Award Number DEB-9870694
                                       Awarded To
                           MISSOURI BOTANICAL GARDEN
                    Schedule of Over (Under) Recovered Indirect Costs
                 For the Period January 1, 1999 to December 31, 2000 (A)
                                          Interim
                                       (Unaudited)




See accompanying independent auditors' report.
                                                                                    63
                                                                         Schedule D-9 (Cont.)

                National Science Foundation Award Number DEB-9870694
                                       Awarded To
                           MISSOURI BOTANICAL GARDEN
                Schedule of Over (Under) Recovered Indirect Costs (Cont.)
                 For the Period January 1, 1999 to December 31, 2000 (A)
                                          Interim
                                       (Unaudited)




(A)   The award period is September 15, 1998 to August 31, 2001.

(B)   The total direct costs plus the claimed indirect costs total $83,813 for the period
      January 1, 1999 to December 31, 2000 agrees with the cumulative net disbursements
      reported on the FCTR as of the quarter ended December 31, 2000.

(C)   Indirect costs were based upon the rate specified above as "Rate Billed to NSF."

(D) The MBG award budget did not list an off-site rate for this award.

(**) Award letter does not have approved rates. Rates per MBG proposed budget.




See accompanying independent auditors' report.
                                                                                          64
	




                                                                               Schedule D-10

                    National Science Foundation Award Number DEB-9981642
                                          Awarded To
                               MISSOURI BOTANICAL GARDEN
                        Schedule of Over (Under) Recovered Indirect Costs
                     For the Period March 1, 2000 to December 31, 2000 (A)
                                             Interim
                                           (Unaudited)


                                                                               FYE
                  Cost Category                                              12/31/00




       Breakdown of MTDC by On-Site and Off-Site/Calculation of Indirect Costs (I/C):

                                                    FYE 12/31/00
                                                 On-Site     Off-Site         Total

    Total MTDC                                       $ 7,672    $             $ 7,672
    Rate per I/C Audit                                 41.46%       N/A

    Calculated VC per audit                            3,181                  $ 3,181
    Claimed indirect (C)                               5,340                     5,340 (B)

    Over/(Under) recovered I/C                       $ 2,159    $     -0-     $ 2,159




    See accompanying independent auditors' report.
                                                                                         65
                                                                        Schedule D-10 (Cont.)

                 National Science Foundation Award Number DEB-9981642
                                       Awarded To
                            MISSOURI BOTANICAL GARDEN
                 Schedule of Over (Under) Recovered Indirect Costs (Cont.)
                  For the Period March 1, 2000 to December 31, 2000 (A)
                                          Interim
                                       (Unaudited)




(A)   The award period is March 1, 2000 to February 28, 2002.

(B)   The total direct costs plus the claimed indirect costs total $17,422 for the period
      March 1, 2000 to December 31, 2000 agrees with the cumulative net disbursements on
      the FCTR as of the quarter ended December 31, 2000.

(C)   Indirect costs were based upon the rate specified above as "Rate Billed to NSF."

(**) Award letter does not have approved rates. Rates per MBG proposed budget.




See accompanying independent auditors' report.
                                                                                          66
                                                                          Schedule D-11

                National Science Foundation Award Number DEB-9981249
                                       Awarded To
                           MISSOURI BOTANICAL GARDEN
                    Schedule of Over (Under) Recovered Indirect Costs
                  For the Period June 15, 2000 to December 31, 2000 (A)
                                          Interim
                                        (Unaudited)




See accompanying independent auditors' report.
                                                                                    67
                                                                          Schedule D-11 (Cont.)

                 National Science Foundation Award Number DEB-9981249
                                        Awarded To
                            MISSOURI BOTANICAL GARDEN
                 Schedule of Over (Under) Recovered Indirect Costs (Cont.)
                   For the Period June 15, 2000 to December 31, 2000 (A)
                                           Interim
                                         (Unaudited)




(A) The award period is June 15, 2000 to May 31, 2002.

(B)   The total direct costs plus the claimed indirect costs total $8,815 for the period June 15,
      2000 to December 31, 2000 agrees with the cumulative net disbursements on the FCTR
      as of the quarter ended December 31, 2000.

(C)   Indirect costs were based upon the rate specified above as "Rate Billed to NSF."

(D)   The MBG award budget did not list an off-site rate for this award.

(**) Award letter does not have approved rates. Rates per MBG proposed budget.




See accompanying independent auditors' report.
                                                                                               68
	




                                                                                Schedule D-12

                    National Science Foundation Award Number DEB-0072682
                                           Awarded To
                               MISSOURI BOTANICAL GARDEN
                        Schedule of Over (Under) Recovered Indirect Costs
                     For the Period August 15, 2000 to December 31, 2000 (A)
                                              Interim
                                            (Unaudited)


                                                                                 FYE
                  Cost Category                                                12/31/00




      Breakdown of MTDC by On-Site and Off-Site/Calculation of Indirect Costs (I/C):

                                                    FYE 12/31/00
                                                 On-Site     Off-Site           Total

    Total MTDC                                 $ 131,443       $      -0-   $ 131,443
    Rate per I/C Audit                             41.46%          17.30%

    Calculated I/C per audit                         54,496          -0-    $ 54,496
    Claimed indirect (C)                             91,485          -0-      91,485 (B)

    Over/(Under) recovered I/C                 $ 36,989        $     -0-    $ 36,989




    See accompanying independent auditors' report.
                                                                                          69
                                                                        Schedule D-12 (Cont.)

                 National Science Foundation Award Number DEB-0072682
                                        Awarded To
                            MISSOURI BOTANICAL GARDEN
                 Schedule of Over (Under) Recovered Indirect Costs (Cont.)
                  For the Period August 15, 2000 to December 31, 2000 (A)
                                           Interim
                                         (Unaudited)




(A) The award period is August 15, 2000 to July 31, 2001.

(B)   The total direct costs plus the claimed indirect costs total $222,928 for the period
      August 15, 2000 to December 31, 2000 agrees with the cumulative net disbursements
      on the FCTR as of the quarter ended December 31, 2000.

(C)   Indirect costs were based upon the rate specified above as "Rate Billed to NSF."

(**) Award letter does not have approved rates. Rates per MBG proposed budget.




See accompanying independent auditors' report.
                                                                                          70
                                                                          Schedule D-13

                National Science Foundation Award Number DEB-0072657
                                       Awarded To
                           MISSOURI BOTANICAL GARDEN
                    Schedule of Over (Under) Recovered Indirect Costs
                  For the Period June 15, 2000 to December 31, 2000 (A)
                                          Interim
                                        (Unaudited)




See accompanying independent auditors' report.
                                                                                    71
                                                                               Schedule D-13

                 National Science Foundation Award Number DEB-0072657
                                        Awarded To
                            MISSOURI BOTANICAL GARDEN
                     Schedule of Over (Under) Recovered Indirect Costs
                   For the Period June 15, 2000 to December 31, 2000 (A)
                                           Interim
                                         (Unaudited)




(A)   The award period is August 15, 2000 to July 31, 2003.

(B)   The total direct costs plus the claimed indirect costs total $11,057 for the period
      August 15, 2000 to December 31, 2000 agrees with the cumulative net disbursements
      on the FCTR as of the quarter ended December 31, 2000.

(C)   Indirect costs were based upon the rate specified above as "Rate Billed to NSF."

(**) Award letter does not have approved rates. Rates per MBG proposed budget.




See accompanying independent auditors' report.
                                                                                         72
                                                                            Schedule D-14

                National Science Foundation Award Number DEB-0072433
                                      Awarded To
                           MISSOURI BOTANICAL GARDEN
                    Schedule of Over (Under) Recovered Indirect Costs
               For the Period September 15, 2000 to December 31, 2000 (A)
                                         Interim
                                       (Unaudited)




See accompanying independent auditors' report.
                                                                                      73
                                                                       Schedule D-14 (Cont.)

                National Science Foundation Award Number DEB-0072433
                                        Awarded To
                            MISSOURI BOTANICAL GARDEN
                     Schedule of Over (Under) Recovered Indirect Costs
                For the Period September 15, 2000 to December 31, 2000 (A)
                                          Interim
                                        (Unaudited)




(A) The award period is September 15, 2000 to August 31, 2003.

(B)   The total direct costs plus the claimed indirect costs total $10,084 for the period
      September 15, 2000 to December 31, 2000 agrees with             the cumulative net
      disbursements on the FCTR as of the quarter ended December 31, 2000.

(C)   Indirect costs were based upon the rate specified above as "Rate Billed to NSF."

(**) Award letter does not have approved rates. Rates per MBG proposed budget.




See accompanying independent auditors' report.
                                                                                         74
                                                                                 Schedule E

                            MISSOURI BOTANICAL GARDEN
                     Listing of NSF Awards Active During Audit Period
                             Not Affected by Indirect Cost Audit
                      For the years ended December 31, 1999 and 2000
                                         (Unaudited)


There were three NSF awards that were active during the years ended December 31, 1999
and 2000, that did not include:

   •
   •
       Indirect costs incurred or billed to NSF on an FCTR; or,
       Indirect costs based upon the application of a rate.

The listing below presents those awards along with an explanation for their exclusion from
this audit.

   NSF Award Number                    Award Period                Explanation

       DBI-9723478                  08/15/97-07/31/99                  (A)
       DEB-9815857                  03/15/99-02/29/00                  (B)
       SES-0080295                  09/01/00-08/31/00                  (C)

(A) There were indirect costs claimed for 1999, however, the amount's claimed to NSF
    were based upon an adjustment for underclaim's to NSF for previous years award
    activities.

(B) No indirect costs budgeted/approved or claimed under this award.

(C) A flat amount of indirect costs in lieu of an amount based upon a rate.




See accompanying independent auditors' report.
                                                                                        75
    SECTION V


AWARDEE'S RESPONSE




                     76
 Material weakness items:

 Point 1- Regarding general ledger segregation of direct and indirect costs.

The Garden accepts the general nature of the recommendation, but the recommended
modification of the general ledger system at this time is impractical. As an alternative, but
equally effective method of determining and accounting for direct and indirect costs, the
Garden will use an excel spreadsheet to compile the data. As discussed in Point 3 below
regarding payroll and attendance records, the Garden now has an extemporaneous system
to capture actual time worked for direct and indirect costs, and will base its excel
spreadsheet calculations on real data, rather than modify the general ledger system.

 In July, 2004, the Garden will move to a new accounting system that will enable it to
 charge direct and indirect costs directly to the general ledger.

Point 2 - Regarding procedures detailing the preparation process of the indirect cost rate
proposal, and the adjustment of the Garden's indirect. cost pool.

The Garden accepts the portion of the recommendation that written policies and procedures
detailing processes for the preparation of indirect cost rate proposal should be developed in
a formal manner. Garden staff has begun the process of formalizing narratives, preparing
sample schedules and flow charts to document the process, expanding on the present
procedure that relies on a series of footnote explanations accompanying the spreadsheets.
These written procedures may be further modified as a result of resolution of these audit
findings.

The Garden believes its position is correct to include $4,059,102 of curatorial costs in the
indirect cost pool, and these costs were not erroneously included. Curatorial costs include
salaries, fringe benefits, supplies, shipping, etc. incurred to collect and maintain natural
history specimens in the Garden's herbarium, made available to all researchers, and are
not project-specific. The herbarium collection is much like the Garden's library, in that it is
a collection of reference material maintained to be accessed by researchers to facilitate their
scientific endeavors. These collections represent a historical repository of scientific
 data that is critical to the successful completion of all NSF projects conducted by the
 Garden. They are neither specific to an individual project nor maintained by project
 personnel, but serve as an open reference collection for research at the Garden as well as
 throughout the scientific community, and thus, is part of our indirect cost pool.




 The Garden requests that the proposed adjustment to exclude curatorial costs be reversed and
 the rate restored to reflect that change.

 Point 3 - Regarding time and attendance records

 The Garden accepts this finding. The Garden has now implemented a time-keeping
 system to document the actual time worked on each project/award as well as time spent
 on direct and indirect cost activities. These hours are recorded on individual time sheets
 (see examples from two employees attached), and subsequently summarized on a
 spreadsheet to create the necessary direct/indirect allocation.

Material deficiency item:

Point 1 - Regarding annual submissions.

The Garden is prepared to submit indirect cost rate proposals to the NSF on an annual basis
or on any schedule deemed appropriate by the NSF. Since 1971, the Garden has submitted bi-
annual submissions, and the NSF has approved rates for two years. Attached are
representative letters from the NSF approving multi-year rates, thus leaving the reader to
conclude such multi-year submissions were acceptable. Because the Garden's research
expenditure level does not experience a substantial change from year to year, it appears that
continuing a two-year rate submission is reasonable.

Regarding Schedule C, schedule of auditor's adjustments and eliminations (page 38):

 To eliminate curatorial costs:
The Garden believes these costs should be restored. Please see the Garden's response and
rationale to Material Weakness Point 2 above.

Adjust costs to agree with general ledger:
Attributed to clerical errors made during the rate data compilation process.

Fixed assets included in direct and indirect cost pools:
For financial reporting purposes, the Garden's records as fixed assets, those items in
excess of $15,000. Due to an oversight, items between $5,000 and $15,000 were not
reclassified out of the cost pools when the rate was calculated. Future rate calculations
will include the necessary adjustments to exclude these items.

Missing vendor invoices:
During the audit process, the staff were unable to find several misfiled documents. A
subsequent search did locate a number of the misfiled documents, and copies are attached
for audit purposes.

The cost of alcoholic beverages were included in the cost pool:
Due to a clerical oversight, certain out-of-town meal costs including alcohol were
misclassified as travel. Procedures now include a step to review such costs to ensure
alcohol is not included the rate calculation.

The cost of business class airfares were included in the coast pool:
The Garden's employee handbook directs that economy fares be used. However, in rare
cases, business .class is used to accommodate schedule and destination requirements. It is the
intention of the Garden to remove these types of costs from the calculation, but, due to an
oversight, the identified business class fares were not eliminated from the calculation.
      MISSOURI BOTANICAL GARDEN

DETAILED (PERSONAL IDENTIFYING INFORMATION) ON
            SCHEDULES C-1 AND C-2
                                               MISSOURI BOTANICAL GARDEN
                            Details of Adjustments to Indirect Costs - Lack of Adequate Documentation
                                              For the Year Ended December 31, 1999


                               Check      Check     G/L Account                                                  Adjustment
        Vendor/Payee           Date      Number      Number     Account Description    Transaction Description    Amount      Ref




Delineation of Adjustments by MBG Indirect Cost Proposal Line Item:

(A) Maintenance, Security, Utilities and Other Related Expenses: Maintenance Expenses - Other Expenses

(B) Administrative Expenses: Other Expenses

(C) Documentation provided by MBG with their response to the draft report.
	




                                                 MISSOURI BOTANICAL GARDEN
                             Details of Adjustments to Indirect Costs - Fixed Assets in Unrestricted Expenses
                                                For the Year Ended December 31, 1999'


                             Check    Check G/L Account                                                                   Adjustment
          Vendor/Payee       Date    Number   Number               Account Description         Transaction Description	    Amount Ref




    Delineation of Adjustments by MBG Indirect Cost Proposal Line Item:

    (A) Maintenance, Security, Utilities and Other Related Expenses: Maintenance Expenses - Other Expenses
	




                                                   MISSOURI BOTANICAL GARDEN
                          Details of Adjustments to Indirect Costs - Unallowable Expenses (Alcoholic Beverages)
                                                 For the Years Ended December 31, 1999


                         Check    Check     G/L Account                                                            Adjustment
        Vendor/Payee     Date    Number	      Number      Account Description           Transaction Description	    Amount Ref




    Delineation of Adjustments by MBG Indirect Cost Proposal Line Item:

    (A) Administrative Expenses: Other Expenses
	




                                                         MISSOURI BOTANICAL GARDEN
                                       Details of Adjustments to Indirect Costs - Lack of Adequate Documentation
                                                        For the Years Ended December 31, 2000


                      Check       Check      G/L Account                                                                          Adjustment
     Vendor/Payee      Date      Number	       Number               Account Description                Transaction Description	    Amount Ref




                                                                                                                                  $6,903

    Delineation of Adjustments by MBG Indirect Cost Proposal Line Item:

    (A) Maintenance, Security, Utilities and Other Related Expenses: Maintenance Expenses - Other Expenses

    (B) Library Expenses: Other Expenses

    (C) Administrative Expenses: Other Expenses
	




                                                    MISSOURI BOTANICAL GARDEN
                                Details of Adjustments to Indirect Costs - Fixed Assets in Unrestricted Expenses
                                                   For the Years Ended December 31, 2000


                                  Check Check G/L Account                                                                       Adjustment
            Vendor/Payee          Date Number Number                Account Description             Transaction Description 	    Amount Ref




    Delineation of Adjustments by MBG Indirect Cost Proposal Line Item:

    (A) Maintenance, Security, Utilities and Other Related Expenses: Maintenance Expenses - Other Expenses
	




                                             MISSOURI BOTANICAL GARDEN
                     Details of Adjustments to Indirect Costs - Unallowable Costs (Business Class Airfares)
                                            For the Years Ended December 31, 2000



                       Check    Check G/L Account                                                             Adjustment
      Vendor/Payee     Date    Number   Number    Account Description           Transaction Description 	      Amount Ref




    Delineation of Adjustments by MBG Indirect Cost Proposal Line Item:

    (A) Administrative Expenses: Other Expenses
